BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershn r, hereby certify that 1 unbound
and 40 copies f the fol'egoing Petition fol' a Writ of
Certiorari in Erin Ca,pron; Jeffrey Penedo; Cultural
Care, Inc., dlb/a Cultural Care Au Pair v. Office of the
Attorney General of the Commonwealth of
Massachusetts; Maura T. Healey, in her capacity as
Attorney General of the Commonwealth of
Massachusetts were sent via Next Day Service to the
U .S. Supreme Court, and 3 copies were ent via NeA1;
Day Service and e-mail to the following parties listed
below this 14th day of February 2020:
Robert E. Toone, Jr.
Elizabeth A. Kaplan
Massachusetts Attorney General's Office
1 Ashburton Place
20th Floor
Boston, MA 02108
(617) 963-2178
Robert. toone@state.ma. us
elizabeth.kaplan@state.ma.us
NOEL FRANCISCO
Solicitor General of the United States
DEPARTMENT OF JUSTICE
Room 5616
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

KERSHNER, J.D.

Paul D. Clement
Counsel of Record
Erin E. Murphy
C. Harker Rhodes IV
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
erin.murphy@kirkland.com
harker.rhodes@kirkland.com

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 14, 2020.

Julie A. Kershner
Becker Gallagher L · ga ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN 0. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 202J

